NO. 20-

IN THE

SUPREME COURT
OF THE UNITED STATES
MICHAEL TORRES,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondents
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
HEIDI R. FREESE, ESQ.
Federal Public Defender
Middle District of Pennsylvania

FREDERICK W. ULRICH, ESQ.
Assistant Federal Public defender
TAMMY L. TAYLOR, ESQ.
Staff Attorney
Middle District of Pennsylvania
100 Chestnut Street, Suite 306
Harrisburg, Pennsylvania 17101
(717) 782-2237
fritz_ulrich@fd.org
Counsel for Petitioner

October 28, 2020

In accordance with Rule 39 of the Rules of the Supreme Court of the United
States, Petitioner, Jamar Lynn McMillan, requests leave to file the enclosed
Petition for Writ of Certiorari to the United States Court of Appeals for the Third
Circuit without prepayment of costs and to proceed in forma pauperis based upon
an appointment under the Criminal Justice Act, 18 U.S.C. § 3006A(d)(6). Pursuant
to the Criminal Justice Act, the Federal Public Defender’s Office was appointed to
represent the Petitioner in the United States District Court for the Middle District
of Pennsylvania and in the United States Court of Appeals for the Third Circuit.

Respectfully submitted,
HEIDI R. FREESE
Federal Public Defender

/s/ Frederick W. Ulrich
FREDERICK W. ULRICH
Asst. Federal Public Defender
100 Chestnut Street, Suite 306
Harrisburg, PA 17101
(717) 782-2237
Attorney ID# PA44855
Counsel for Petitioner,
Michael Torres
Date: October 28, 2020

